No. 21-145
IN THE

Supreme Court of the United States
GORDON COLLEGE, ET AL.,
Petitioners,
v.
MARGARET DEWEESE-BOYD,
Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 2nd day of September, 2021, I caused three copies of the Brief of the Jewish
Coalition for Religious Liberty and Agudath Israel of America as Amici Curiae in
Support of Petitioners to be served by third-party commercial carrier on the counsel
identified below, and caused an electronic version to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.
John J. Bursch
ALLIANCE DEFENDING FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@adflegal.org

Hillary Ada Schwab
FAIR WORK, P.C.
192 South Street
Suite 450
Boston, MA 02111
(617) 607-3261
hillary@fairworklaw.com

Counsel for Petitioners

Counsel for Respondent

/s/ Blaine H. Evanson
Blaine H. Evanson

